U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 14, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Ricky Parkerson v. United States, No. 20-8345
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on June 11, 2021.
The government’s response is now due, after one extension, on October 15, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
November 15, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

20-8345
PARKERSON, RICKY
USA

CHRISTOPHER A. CURTIS
FEDERAL PUBLIC DEFENDER'S OFFICE
819 TAYLOR STREET
ROOM 9A10
FORT WORTH, TX 76102
CHRIS_CURTIS@FD.ORG

